No.

In The
SUPREME COURT OF THE UNITED STATES

In re WESLEY PERKINS,
Respondent - Appellant Petitioner (Mand.) — Petitioner (Mand.)

On Petition for a Writ of Mandamus to the
COURT OF APPEALS,
THIRD DISTRICT OF TEXAS

Certificate of Service for the
Original Petition for a Writ of Mandamus
with Appendix A

By my signature below, per Rule 29.5(c), I certify,
pursuant to 28 U.S.C. § 1746, that on or about the
6th day of March, 2020,1 caused to be served three
(3) true and correct copies of this
Original Petition for a Writ of Mandamus with its
Appendix A,
by certified mail, or by 3-day (or faster) delivery
service, as follows:
COURT OF APPEALS, THIRD DISTRICT
P.O. Box 12547
Austin, TX 78711-2547
three each for
• JEFF L. ROSE, Chief Justice
• GISELA D. TRIANA, Justice
• EDWARD SMITH, Justice
via the Clerk of Court, JEFFREY D. KYLE

JOHN LIPSCOMBE, Judge
COUNTY COURT AT LAW NO. 3
OF TRAVIS COUNTY
P.O. Box 1748
Austin, TX 78711-1748
BILLY RAY STUBBLEFIELD, Judge
(WILLIAMSON COUNTY)
ADMINISTRATIVE JUDGE FOR THE TRAVIS
COUNTY COURTS AT LAW
405 Martin Luther King, Box 2
Georgetown, TX 78626
STATE OF TEXAS via
DAVID A. ESCAMILLA
TRAVIS COUNTY ATTORNEY
P.O. Box 1748
Austin, TX 78711-1748
Hon. KEN PAXTON
Attorney General
STATE OF TEXAS
P.O. Box 12548, Capital Station
Austin, TX 78711-2548
and
Hon. NOEL FRANCISCO
Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, N.W., Room 5614
Washington, DC 20530-0001
Potentially interested parties also Served:
ELISABETH EARLE, Judge
COUNTY COURT AT LAW 7
OF TRAVIS COUNTY
P.O. Box 1748
Austin, TX 78711-1748
PHIL CAMPBELL
100 E. Whitestone Blvd.
Cedar Park, TX 78613-6902

Executed on the

10th

day of March, 2020

/s/ es Perkins
WESLEY PERKINS

